         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Attestation Report




       Canaan Valley Institute, Inc.,
       Incurred Cost Audit of Five EPA
       Cooperative Agreements
       Report No. 08-4-0156

       May 19, 2008
Report Contributors:           Lawrence Gunn
                               Leah Nikaidoh
                               Bill Spinazzola
                               Richard Valliere




Abbreviations

Agreements   X799368208, X83274301, X83251701, X799368209 and X797339001
CFR          Code of Federal Regulations
EPA          U.S. Environmental Protection Agency
FCTR         Federal Cash Transactions Report/SF 272
FFS          Fee-for-Service
FSR          Financial Status Report
FY           Fiscal Year
IPA          Intergovernmental Personnel Act
NRCS         Natural Resources Conservation Service
OEI          Office of Environmental Information
OIG          Office of Inspector General
OMB          Office of Management and Budget
Recipient    Canaan Valley Institute, Inc.
USDA         U.S. Department of Agriculture
                       U.S. Environmental Protection Agency 	                                              08-4-0156
                                                                                                         May 19, 2008
                       Office of Inspector General


                       At a Glance

                                                                           Catalyst for Improving the Environment


Why We Did This Review           Canaan Valley Institute, Inc., Incurred Cost 

We conducted this                Audit of Five EPA Cooperative Agreements

examination to determine
whether (a) the reported          What We Found
incurred costs for five U.S.
Environmental Protection         In our opinion, with the exception of the questioned costs discussed below, the
Agency (EPA) cooperative         outlays reported in the recipient’s Federal Cash Transaction Reports and Financial
agreements were reasonable,      Status Reports present fairly, in all material respects, the allowable outlays
allocable, and allowable in
                                 incurred in accordance with the terms and conditions of the agreements and
accordance with the terms and
conditions of the agreements     applicable laws and regulations. We questioned $3,235,927 of the $6,686,424 in
and applicable regulations;      reported net outlays because the recipient reported unallowable outlays for
and (b) Canaan Valley            indirect, contractual, and in-kind costs. Specifically, the recipient:
Institute (recipient) achieved
the intended results of the        •   Claimed indirect costs without approved indirect rates;
agreements.                        •   Did not credit back to the agreements all program income;
                                   •   Did not demonstrate that it performed cost analysis of contracts;
Background
                                   •   Reported costs for services outside of the scope of one agreement;
EPA awarded five cooperative       •   Did not comply with terms and conditions of contracts; and
agreements to the recipient to     •   Used EPA funds to match another federally-funded cooperative agreement.
provide further enhancements
to the Mid-Atlantic              The recipient met the requirements of its assistance agreements. However, the
Highland’s environment and       recipient could improve its subrecipient monitoring program.
economic sustainability, and
continued support for the
                                  What We Recommend
Highland action plan.
                                 We recommend that EPA recover questioned outlays of $3,218,661 unless the
                                 recipient provides sufficient documentation to support the related reported costs in
                                 accordance with Federal regulations. EPA should require the recipient to prepare
                                 and submit its indirect cost rate proposals for negotiation using the accrual
                                 method, and disclosing the direct allocation methodology. The recipient should
For further information,         credit $17,266 in program income to the agreements. The recipient needs to
contact our Office of            ensure that cost and pricing analyses are performed and documented as part of its
Congressional and Public         contract procurement process.
Liaison at (202) 566-2391.

To view the full report,         We recommend EPA direct the recipient to revise its subrecipient monitoring
click on the following link:     program to require technical reports from its subrecipients, in addition to financial
www.epa.gov/oig/reports/2008/    reports that are already required. The recipient should also time its subrecipient
20080519-08-4-0156.pdf           payments to ensure the funds are expended timely by its subrecipients.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL


                                          May 19, 2008

MEMORANDUM

SUBJECT:	 Canaan Valley Institute, Inc.,
          Incurred Cost Audit of Five EPA Cooperative Agreements
          Report No. 08-4-0156


FROM:	         Melissa M. Heist
               Assistant Inspector General for Audit

TO:	           Richard Kuhlman
               Director, Grants and Interagency Agreements Management Division

               Donald S. Welsh        

               Regional Administrator, Region 3           



This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
EPA managers in accordance with established audit resolution procedures will make the final
determination on matters in this report.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $369,957.

Action Required

In accordance with EPA Manual 2750, Chapter 3, Section 6(f), you are required to provide us
your proposed management decision for resolution of the findings contained in this report before
any formal resolution can be completed with the recipient. Your proposed decision is due on
September 16, 2008. To expedite the resolution process, please e-mail an electronic version of
your proposed management decision to kasper.janet@epa.gov.

We have no objections to the further release of this report to the public. For your convenience,
this report will be available at http://www.epa.gov/oig. We want to express our appreciation for
the cooperation and support from your staff during our review. If you have any questions, please
contact Janet Kasper, Director, Assistance Agreement Audits, at (312) 886-3059.
Canaan Valley Institute, Inc., Incurred Cost Audit                                                                          08-4-0156
of Five EPA Cooperative Agreements



                                   Table of Contents 


Chapters
   1     Background ...........................................................................................................       1


   2     Independent Auditor’s Report..............................................................................                   3


   3     Results of Examination – Review of Reported Costs ........................................                                   5


                 Indirect Costs .................................................................................................     5

                 Program Income .............................................................................................         9

                 Procurement System Did Not Comply with Standards ...................................                                11 

                 EPA Funds Used to Match Another Federally-Funded Cooperative 

                    Agreement.................................................................................................       17 

                 Recommendations .........................................................................................           19             


   4     Results of Examination – Programs Results......................................................                             21     


                 Recommendations .........................................................................................           22     



Schedules
   Schedules of Recorded Outlays and Results of Examination...................................                                       23     


   1     Cooperative Agreement X799368208 ....................................................................                       23     

   2     Cooperative Agreement X83274301 ......................................................................                      25     

   3     Cooperative Agreement X83251701 ......................................................................                      27     

   4     Cooperative Agreement X799368209 .....................................................................                      29         

   5     Cooperative Agreement X797339001 ....................................................................                       31     


   Status of Recommendations and Potential Monetary Benefits.................................                                        32     



Appendices
   A     Scope and Methodology.......................................................................................                34     


   B     Recipient’s Response ..........................................................................................             35     


   C     Distribution ............................................................................................................   42     

                                                                                 08-4-0156 





                         Chapter 1
                         Background
We audited five cooperative agreements (agreements) awarded to the Canaan
Valley Institute, Inc. (recipient), totaling $9,565,400. The recipient is a nonprofit
organization that provides assistance to communities to improve the quality of life
in their watersheds by restoring aquatic resources using cost-effective, local
determined solutions. The recipient serves an area covering 79,000 square miles
covering Pennsylvania, West Virginia, and parts of Maryland and Virginia that
border the Blue Ridge Mountains to the east and the Ohio River to the west,
known as the Mid-Atlantic Highlands. The recipient’s headquarters are located in
Thomas, West Virginia. The following table provides some basic information
about the authorized project periods and funds awarded under each of the five
agreements:

Table 1-1: Schedule of Agreement Information
                               EPA
    Grant        Award      Total Grant    Total
     No.          Date        Award       Outlays                   Project Period
 X799368208      09/29/2004      $1,988,200     $1,988,200    10/01/2004 – 07/31/2006
 X83274301       08/05/2005       1,686,400      1,668,889    09/01/2005 – 08/31/2007
 X83251701       08/12/2005       1,936,200        993,017    04/01/2005 – 09-30/2007
 X799368209      11/02/2005       1,984,000      1,984,000    11/01/2005 - 10/31/2006
 X797339001      02/16/2007       1,970,600         52,318    03/01/2007 – 02/28/2009
 Total                           $9,565,400     $6,686,424
Source: EPA assistance agreement award documents and financial status reports.

EPA awarded all five agreements under the Clean Water Act. EPA also awarded
agreement X83274301 under the Clean Air Act, Safe Drinking Water Act, and the
Solid Waste Disposal Act. A description of the purpose of each agreement
follows:

Agreements X799368208 & X799368209: These agreements provide funding for
the recipient to work with local stakeholders to support the implementation of
water projects that address environmental problems in the Mid-Atlantic
Highlands. The recipient focuses its resources on priority areas for stream
restoration, wastewater issues, land use, source water, and flooding issues.

Agreement X83274301: This agreement provides funding to enhance the
development and availability of information resources and geospatial technology.
It supports local environmental decision making, restoration, and conservation
planning in the Mid-Atlantic Highlands.


                                     1

                                                                           08-4-0156 



Agreement X83251701: This agreement provides funding to the recipient to
conduct ecological prioritization, restoration, and conservation research in the
Mid-Atlantic Highlands to support EPA’s Restoration Plus program. The
program is a collaborative research program that evaluates ecosystems restoration
and management activities. It also develops methods to prioritize restoration
efforts to attain long-term sustainability of restoration solutions.

Agreement X797339001: This agreement provides funding to work with
community groups and other partners. The recipient provides the assistance and
education needed to identify solutions to water quality issues. The recipient
focuses its technical expertise on helping communities develop solutions in
stream restoration and decentralized wastewater. It also uses its educational and
technical assistance resources to leverage additional partnerships and funding
needed for implementation.

Throughout the report we use the term questioned costs. Questioned cost are
outlays that are (1) contrary to a provision of a law, regulation, agreement, or
other documents governing the expenditures of funds; or (2) not supported by
adequate documentation.




                                  2

                                                                          08-4-0156 





                          Chapter 2
        Independent Auditor’s Report
We have examined the total outlays reported by the Canaan Valley Institute, Inc.
(recipient), under the EPA assistance agreements, as shown below:

Table 2-1: Total Reported Outlays
                        Federal Cash Transaction
                    Reports/Financial Status Reports
                                                        Total
   Assistance          Date            Period          Outlays
   Agreement         Submitted         Ending          Reported
 X799368208          10/25/2006      07/31/2006        $1,988,200
 X83274301           07/24/2007      06/30/2007         1,668,889
 X83251701           07/24/2007      06/30/2007           993,017
 X799368209          07/24/2007      06/30/2007         1,984,000
 X797339001          07/24/2007      06/30/2007             52,318
       Total                                           $6,686,424

Source: The total outlays reported were from the recipient’s Federal
Cash Transaction Reports/Financial Status Reports.

The recipient certified that the outlays reported on the Federal Cash Transactions
Reports (FCTRs), Standard Form 272 and/or the Financial Status Reports (FSRs),
Standard Form 269, were correct and for the purposes set forth in the agreements.
The preparation and certification of the claims were the responsibility of the
recipient. Our responsibility is to express an opinion on the reported outlays
based on our examination.

Our examination was conducted in accordance with the Government Auditing
Standards issued by the Comptroller General of the United States, and the
attestation standards established for the United States by the American Institute of
Certified Public Accountants. We examined, on a test basis, evidence supporting
the reported outlays, and performed such other procedures, as we considered
necessary under the circumstances. We believe that our examination provides a
reasonable basis for our opinion.

We questioned $3,235,927 of the $6,686,424 in reported outlays because the
recipient claimed unallowable outlays for indirect costs and contractual services
and did not reduce outlays by all applicable program income. Specifically, the
recipient:

                                        3

                                                                          08-4-0156 





•      Claimed indirect costs without approved indirect rates;
•      Did not credit back to the agreements all program income;
•      Did not perform or document cost analysis of contracts;
•      Reported costs for services outside of the scope of the agreement;
•      Did not comply with terms and conditions of contracts; and,
•      Used EPA funds to match another federally-funded program.

In our opinion, with the exception of the questioned outlays discussed in the
preceding paragraph, the outlays reported in the Federal Cash Transactions
Report present fairly, in all material respects, the allowable outlays incurred in
accordance with the terms and conditions of the agreements and applicable laws
and regulations. Details of our examination are included in the Schedule of
Reported Outlays and Results of Examination that follows.



Janet Kasper
Office of Inspector General
U.S. Environmental Protection Agency
December 12, 2007




                                 4

                                                                                             08-4-0156 





                                   Chapter 3
  Results of Examination - Review of Reported Costs
          We questioned $3,235,927 because the recipient claimed unallowable outlays for
          indirect costs, directly allocated costs, contractual services, and matching costs.
          The recipient did not reduce outlays for all applicable program income. The
          recipient’s internal controls were not sufficient to ensure that reported outlays
          complied with Federal regulations, as required. These weaknesses and the
          resulting questioned costs are described in the following paragraphs. Details on
          the costs questioned for each agreement are included in Schedules 1 through 5.

          Table 3-1: Total Reported Outlays and Questioned Costs
                                   Total      Questioned
               Assistance        Reported     Outlays and Amount Due
               Agreement          Outlays     Adjustments      EPA                    Schedule

           X799368208               $1,988,200       $ 826,097        $ 826,097          1
           X83274301                 1,668,889          767,952           783,063        2
           X83251701                   993,017          437,122           436,105        3

           X799368209                1,984,000         1,187,723        1,187,723        4

           X797339001                    52,318           17,033           14,715        5

                   Total            $6,686,424       $3,235,927       $3,247,703
          Sources: The reported outlays shown were from the recipient’s FCTRs/FSRs.
          The amounts questioned were based upon OIG analysis.


Indirect Costs

          We questioned all of the recipient’s indirect costs claimed, totaling $1,696,493
          and directly allocated costs of $1,086,116 because the recipient: (1) did not
          submit indirect cost proposals or have indirect cost rate agreements, (2) did not
          properly disclose its direct allocation methods as part of its indirect cost rate
          proposals, and (3) used an inequitable base for allocating some of its
          administrative costs. In accordance with Office of Management and Budget
          (OMB) Circular A-122, recipients are required to submit indirect cost rate
          proposals annually for approval. These plans need to reflect all indirect cost
          methods, including direct allocation plans. All indirect costs need to be allocated
          on a basis that reflects the benefit received from such costs or activities. As a
          result, the recipient is in noncompliance with OMB Circular A-122, as well as its
          EPA assistance agreements.




                                               5

                                                                          08-4-0156


We questioned total indirect costs of $1,696,493 because the recipient did not
submit indirect cost proposals annually or have approved indirect cost rates for
the period covered by these assistance agreements. The conditions of the
recipient’s assistance agreements and OMB Circular A-122 require that the
recipient submit indirect cost proposals to its cognizant Federal agency for
approval each year. Canaan Valley Institute did not submit proposals for the
period covered by the five agreements in our review. However, it continued to
request reimbursement from EPA for indirect costs incurred even though it did
not have approved rates.

Total indirect costs reported and questioned of $1,696,493 are detailed by
agreement below.

Table 3-2: Questioned Indirect Costs
        Assistance
        Agreement               Reported          Questioned
 X799368208                    $ 480,018           $ 480,018
 X 83274301                      366,322              366,322
 X83251701                       244,168              244,168
 X799368209                      592,767              592,767
 X797339001                       13,218               13,218
    Total                     $1,696,493           $1,696,493
Sources: The reported outlays shown were from the recipient’s
FCTRs/FSRs. The amounts questioned were based upon OIG analysis.

The recipient did not submit annual indirect cost proposals for fiscal years (FYs)
2005, 2006, and 2007 to its cognizant agency (U.S. Department of Commerce)
and did not have approved indirect cost rates for these periods. The recipient’s
last approved indirect cost rate was for FY 2003. The recipient submitted
requests for reimbursement of indirect costs even though its assistance agreements
prohibited this practice. When requesting reimbursement and reporting costs
under EPA assistance agreements, Canaan Valley Institute recovered its indirect
costs by accumulating and charging indirect costs monthly to these various
agreements.

Four of five assistance agreements (X799368208, X83274301, X783251701, and
X799368209) included conditions stating that Canaan Valley Institute must
submit a proposal for indirect costs to its cognizant agency within 90 days of the
effective date of award if it did not have an approved rate. Three of its assistance
agreements (X783251701, X799368208, and X797339001) included a provision
stating that Canaan Valley Institute could not bill for indirect costs unless it had
an approved indirect cost rate agreement. OMB Circular A-122 Attachment A,
paragraph E.2.c, states the recipient must submit a new indirect cost proposal
within 6 months of the end of the fiscal year. The recipient claimed indirect costs
regardless of agreement conditions and the requirements of OMB Circular A-122.
All indirect costs claimed are therefore unallowable.


                                   6

                                                                                                          08-4-0156


                  We found that, as part of its indirect cost procedures, Canaan Valley Institute used
                  the direct allocation method for allocating several types of costs, such as
                  telephones, general professional services, and automobile leasing and
                  maintenance. These costs were directly allocated to various agreements and were
                  not included as part of the recipient’s indirect cost rates. OMB Circular A-122,
                  Attachment A, Paragraphs C.1 and D.4, state these types of costs are joint costs
                  and that joint costs are indirect costs. The recipient did not properly disclose as
                  part of its FY 2003 indirect cost proposal that it directly allocated certain indirect
                  costs, such as telephone charges, auto leases, and professional salaries to its
                  assistance agreements. Therefore, all of the claimed directly allocated costs are
                  unallowable. Canaan Valley Institute claimed $1,086,116 for directly allocated
                  costs, as follows:

                  Table 3-3: Questioned Directly Allocated Costs1
                   Assistance             Fringe
                   Agreement             Benefits        Travel    Supplies     Contractual      Other           Total
                    X799368208             $167,132     $29,952     $      0        $13,177      $ 55,498     $ 265,759
                    X83274301                138,617     14,706         5,269         7,188        48,654       214,434
                    X83251701                118,495     11,965         1,931         5,853        42,454       180,698
                    X799368209               263,856     33,411         6,689        15,127       103,017       422,100
                    X797339001                 2,816           0           0            271              38          3,125
                         Total             $690,916     $90,034     $13,889         $41,616     $249,661      $1,086,116
                  Sources: The reported outlays shown were from the recipient’s FCTRs/FSRs. The amounts
                  questioned were based upon OIG analysis.

                  While reviewing Canaan Valley Institute’s cost allocation methods, we noted that
                  it did not comply with the requirements of OMB Circular A-122 Paragraph D.4.b.
                  This section states that the allocation base for directly allocated costs should
                  accurately measure the benefits provided to each award. The allocation base that
                  the recipient used for Professional Fees-Legal, Professional Fees-Accounting, and
                  Telephones was salaries of major agreements. A more appropriate base is salaries
                  of all agreements, since all agreements benefited from these activities, not just
                  major agreements. The recipient allocated other accounts using different
                  allocation bases, but we did not have concerns with the other allocation bases.

                  To illustrate the effect of using major agreements as a base for allocating costs
                  instead of all agreements, we recalculated the allocation of telephone costs for FY
                  2006. Canaan Valley Institute calculated and allocated $74,485 to EPA assistance
                  agreements for telephones. If the recipient used salaries costs of all assistance
                  agreements as the allocation base, the amounts charged to EPA assistance
                  agreements would decrease by $29,481.

                  In a subsequent discussion with Canaan Valley Institute personnel, the personnel
                  stated that, as a result of our review, the recipient revised the allocation method

1
 The recipient also directly allocated $53,676 of contractual costs to several agreements as described on page 15,
Procurement – Improper Contract Administration.

                                                          7

                                                                           08-4-0156 



for the future to include salaries of all assistance agreements in the base for
Professional Fees-Legal, Professional Fees-Accounting, and Telephones. We did
not independently verify that this correction was made.

On November 2, 2007, U.S. Department of Commerce’s Director, Grants
Management Division, Office of Acquisition Management and Financial
Assistance (the recipient’s cognizant agency), sent a letter to Canaan Valley
Institute instructing it to continue recovering indirect costs on Federal awards
using actual indirect cost rates. It also required the recipient to prepare and
submit an indirect cost proposal for FY 2008, but not to submit proposals for FYs
2005, 2006, and 2007. Any differences between the amount billed and actual
indirect costs for FYs 2005, 2006, and 2007 will be recovered by including a
carry-forward adjustment in calculating the FY 2008 rate. The recipient’s
submission was due March 31, 2008. These instructions do not comply with the
conditions of EPA agreements which state that the recipient cannot bill for
indirect costs unless it has a current approved indirect cost rate or has submitted
proposals to its cognizant agency. Canaan Valley Institute should discontinue its
practice of billing EPA for indirect costs using actual rates until the rates have
been approved or the recipient has submitted a proposal to the U.S. Department of
Commerce that comply with OMB Circular A-122.

Recipient’s Response:

Canaan Valley Institute agreed that the last approved indirect cost rate of 31.92
percent was based on FY 2003 expenditures. The recipient also agreed that the
indirect cost rates used during the audit period were based on actual expenditures
for FYs 2005, 2006, and 2007 or 30.91 percent, 31.51 percent, and 31.55 percent
respectively. The recipient stated it submitted an indirect cost proposal based on
audited FY 2007 expenditures to its cognizant agency and provided a copy of the
proposal.

Canaan Valley Institute noted in its response that the direct allocation of costs was
not disclosed in its FY 2003 indirect cost proposal. The recipient stated it has
addressed this omission and included an explanation of the direct allocation of
costs in the FY 2007 indirect cost proposal. Canaan Valley Institute also stated
that it addressed the finding on allocation of professional fees for accounting and
legal and telephone expenses by allocating these expenses using a base of salary
expense for all funding sources instead of salaries of major assistance agreements.
This change was made beginning in FY 2008.

OIG Analysis:

We reviewed the recipient’s indirect cost rate proposal and identified adjustments
that are needed to properly reflect costs incurred and to meet Federal
requirements. Until adequate indirect cost proposals are submitted and the U.S.
Department of Commerce approves the rate, the costs remain questioned.


                                  8

                                                                                    08-4-0156


         Canaan Valley Institute submitted an indirect cost proposal for FY 2007 to its
         cognizant agency. However, the recipient included adjustments in the proposal to
         convert accrual basis amounts to the cash basis. This is not consistent with the
         recipient’s method of accounting and claim preparation, where the accrual method
         has been used. When we asked the recipient why it chose to perform this
         conversion, the Director for Finance and Operations said that the objective was to
         make the indirect cost proposal come as close as possible to amounts for indirect
         expenses drawn during the year. According to the recipient, the proposal was
         based on FY 2005, 2006, and 2007 data, and the recipient wanted the costs in the
         proposal to closely agree to amounts drawn during those years. The recipient also
         stated that its 2003 indirect cost rate proposal was prepared using the accrual
         basis.

         The recipient should revise its submission to include only accrual basis amounts.
         There are no requirements in OMB Circular A-122, 40 CFR Part 30, or in the
         assistance agreement conditions for the use of an accounting basis other than the
         one on which the recipient's accounting system is maintained. Accrual basis
         amounts provide a better matching of expenditures to the period in which they
         were expended and to the period where projects benefited from the incurrence of
         the costs.

         The recipient identified in its proposal various types of costs that are treated as
         direct allocations. However, the proposal did not did not provide any details on
         the elements of the allocation bases, the proposed dollar amounts, or rate
         calculations for directly allocated costs. OMB Circular A-122, Attachment A,
         paragraph E.1.f states that an indirect cost proposal is meant to include the
         documentation prepared by an organization to substantiate its claim for the
         reimbursement of indirect costs. The proposal provides the basis for the review
         and negotiation leading to the establishment of an organization's indirect cost rate.
         Canaan Valley Institute should revise its submission to include the elements of
         each of the cost pools for directly allocated costs, the elements of the allocation
         base, proposed dollar amounts, and rate calculations. Inclusion of these additional
         details on directly allocated costs will provide the information necessary for
         review and negotiation of an indirect cost rate.

         Finally, Canaan Valley Institute should revise the allocation base for professional
         fees and telephone expenditures for all years in which the rate was in effect
         instead of only FY 2008 and forward. Amounts reported to EPA in the past were
         misstated because the recipient used an inappropriate allocation base. These
         previously reported amounts should be adjusted for any differences that result
         from changing the allocation base.

Program Income
         The recipient used equipment funded 100 percent with EPA funds to generate
         income that should have been credited to EPA assistance agreement X83274301.


                                           9

                                                                          08-4-0156


Title 40 CFR 30.24(b) and (c) state that program income earned during the project
period shall be deducted from the total project or program allowable costs in
determining the net allowable costs on which the Federal share of costs is based.
As a result, the recipient should have credited $17,266 in program income back to
EPA.

EPA’s Office of Environmental Information (OEI) awarded funding of $215,000
to purchase an airplane, under this agreement. OEI awarded, under a prior
agreement, funds of $1.3 million for the purchase of Light Detection and Ranging
equipment. During the audit period, the recipient used this equipment and billed
its clients using a Fee-for-Service (FFS) type of contract. It has awarded FFS
contracts valued at $914,000. As of June 30, 2007, the recipient received revenue
of $603,221 and incurred related project costs of $507,717, resulting in a net
profit of $95,504. The recipient did credit the agreement for $78,238 for the FFS
contracts and $6,713 for conference fees (a total credit of $84,951). However, the
recipient still needs to credit the total amount of revenue earned from the FFS
contract, in the amount of $17,266 ($95,504 net profit less $78,238 credit). The
recipient should also credit any additional program income that will be earned
through the end of the assistance agreement.

Recipient’s Response:

Canaan Valley Institute did not agree that additional program income must be
credited for the period ended June 30, 2007. According to the recipient, for the
audit period ended June 30, 2007, it recorded a FFS net profit of $95,504, and
credited $82,813 to the EPA grants. None of the expenses incurred while
performing the FFS contracts were charged to Federal awards. According to 40
CFR 30.34(a), the recipient retains ownership of the equipment, rather than the
Federal Government.

The recipient stated that under its FFS activities, it meets the requirements of 40
CFR 30.34(b) in that when it used equipment acquired with Federal funds to
provide services to non-Federal outside organizations, it charged a fee comparable
to those charged by private companies for the same service. The recipient
credited the grants $82,813 of program income that represented the fair market
value of the services it provided less expenses incurred to provide the services.

OIG Analysis:

Title 40 CFR 30.2(x) defines program income as follows: "Program income
includes, but is not limited to, income from fees for services performed, the use or
rental of real or personal property acquired under federally-funded projects, . . .”
Even though the recipient owns the equipment, if it was acquired under Federally
funded projects, the income from fees is considered program income.




                                 10 

                                                                                   08-4-0156


         The regulations do not set an upper limit on the amount of fees that are considered
         program income. Title 40 CFR 30.34 (b) states that a recipient cannot charge a
         fee less than private companies charge for equivalent services. Title 40 CFR
         30.34 (d) states that user charges shall be treated as program income. Therefore,
         all income, less associated expenses, is to be considered program income.

         Based on the recipient’s response and subsequent information provided by the
         recipient, we adjusted the amounts recorded as program income. The recipient
         states it credited $82,813 back to EPA as program income. However, only
         $78,238 was credited against this agreement. The remaining $4,575 was credited
         against a prior OEI agreement. The recipient needs to credit the total amount of
         revenue earned from the FFS contract, in the amount of $17,266 ($95,504 less
         $78,238) and revise how it calculates program income in the future.

Procurement System Did Not Comply with Standards

         The recipient’s procurement system did not comply with EPA’s procurement
         standards. When applying for grant assistance, the recipient certified that it would
         comply with applicable requirements of Federal laws, executive orders,
         regulations, and policies governing each grant. The procurement standards are
         codified in Title 40 CFR 30.41 through 30.48. We found that the recipient:

         • 	 did not have adequate written policies and procedures for its procurement
             activities;
         •	 awarded contracts without performing the cost or price analysis required by
             Title 40 CFR 30.45;
         • 	 awarded a contract for services outside of the scope of the agreement; and,
         • 	 reimbursed a consultant not in accordance with the terms and condition of the
             contract.

         Procurement – Contract Management

         The recipient did not have adequate written polices and procedures for its
         procurement activities. The recipient is required by the terms and condition of
         the assistance agreement to comply with the procurement provisions in Title 40
         CFR 30.40 and the Appendix to Part 30.

         The audit firm performing the OMB A-133, Fiscal Year 2005, annual audit
         reported in it management letter, dated March 21, 2007, that the recipient did not
         have a formal policy of monitoring compliance with provisions of various
         contracts during the audit period. The audit firm did state that a formal policy had
         been adopted as of the date of its letter, but did not express any statement on the
         adequacy of that policy. Our review of the recipient’s policies and procedures
         manual identified the following missing or incomplete contract management
         procedures:


                                          11 

                                                                                                      08-4-0156


                 •	   Section 30.47 - Contract administration. Although the recipient maintains a
                      data base of contracts, it does not have written procedures to ensure its
                      contractors have performed in accordance with the terms, conditions, and
                      specification of the contracts and to ensure adequate and timely follow-up of
                      all purchases.

                 •	   Section 30.48 - Contract provisions. The written procedures do not include
                      the required additional contract clauses.

                 As discussed below, in the Procurement – Improper Contract Administration, the
                 lack of certain contract management procedures has resulted in our questioning all
                 costs associated with the H. Ronald Preston contract, because the recipient had no
                 documentation to show what work was performed by the contractor. Without the
                 strengthening of the procurement policies and procedures and its effective
                 implementation, the recipient may not be able to demonstrate that goods and
                 services are obtained in an effective manner and in compliance with the
                 provisions of applicable Federal regulations. As presented below, specific
                 contract non-compliance practices have resulted in questioned contract costs
                 reported under the five EPA assistance agreements.

                 Recipient’s Response:

                 Canaan Valley Institute’s policies and procedures manual and contract documents
                 have been modified to include details necessary to ensure that goods and services
                 are obtained in an effective manner and in compliance with the provisions of 40
                 CFR 30.40 through 30.48

                 OIG Analysis:

                 We reviewed the documentation the recipient provided, showing modifications to
                 its policies and procedures manuals, as well as a contract template to be used for
                 its procurements. The modifications made by the recipient were sufficient. The
                 recipient fully implemented our recommendation; therefore, no further action is
                 required.

                 Procurement – Cost and Pricing Analysis

                 We questioned contract costs of $272,888 because the recipient did not perform
                 or document the required cost or price analysis for sole-source contracts. EPA's
                 procurement standards (40 CFR 30.45) require that recipients perform and
                 document some type of cost or price analysis for its procurements. We reviewed
                 12 contracts and found that 9 were sole source procurements from 4 vendors. The
                 recipient’s files did not contain any evidence of a cost or price review2:


2
 The fourth contract was with H. Ron Preston and is discussed under Procurement – Improper Contract
Administration, page 15 of report.

                                                      12 

                                                                                             08-4-0156


Table 3-4: Questioned Contract Costs – Lack of Cost or Price Analysis
                                                                                      Total Amount
       Contract           X799368209 X83251701 X83274301 X799368208                    Questioned
AC Express, Inc              $    177     $ 354  $160,368                                   $160,899
Wildland Hydrology            103,540                                                        103,540
James Kreissl                              2,240              $6,209                           8,449
   Total                     $103,717     $2,594 $160,368     $6,209                        $272,888
Sources: The contract costs were obtained from the recipient’s accounting records. The amounts
questioned were based upon OIG analysis.

        The recipient's contract files did not have evidence that it performed the required
        cost or price analysis on each procurement action. During discussions with the
        recipient, the Director for Finance and Operations said that it did perform cost or
        price analysis, but until recently, its practice was not to document any cost or
        price analysis performed when negotiating contracts. The recipient did document
        the justification for selection and awarding the contracts sole-source.

        Without a sufficient cost or price analysis, we cannot be assured that a fair and
        reasonable price was obtained. Accordingly, we question the $272,888.

        Recipient’s Response:

        The recipient stated that the OIG questioned contract costs, citing the lack of a
        cost or price analysis for the contracts. The recipient provided Cost Analysis
        Worksheets that were completed for each of the sole source procurements: A.C.
        Express, Inc., Wildland Hydrology, and James Kreissl.

        OIG Analysis:

        The recipient has not demonstrated that it had obtained a fair and reasonable price
        when procuring goods and services. It did provide a Cost and Price Analysis
        Worksheet for each of the agreements stating that a cost analysis was performed
        after the fact. However, no documentary evidence was provided to support its
        statements or conclusion contained in the work sheets. We contacted the recipient
        requesting any additional documentation that they would have to support the
        analysis provided. The recipient did not have any further information.
        The information that the recipient provided supports more of a price analysis than
        a cost analysis. A price analysis is the comparison of price quotations submitted.
        A cost analysis is a review and evaluation of each element of cost to determine
        reasonableness, allocability and allowability.

        For example, the AC Express, Inc. Cost and Price Analysis Worksheet discussed
        rates the contractor quoted and a comparison of these rates to comparable rates
        provided by other contractors. This method constitutes a price analysis and not a
        cost analysis. Since all of the reviewed contracts were sole source procurements,
        the recipient is not allowed to perform a price analysis, but must prepare a cost
        analysis, in accordance with EPA’s policy, entitled Purchasing Supplies,


                                              13 

                                                                                      08-4-0156


           Equipment and Services Under EPA Grants. Therefore, the recipient’s analysis is
           not acceptable. Accordingly, our audit position remains unchanged.

Procurement – Services Outside the Scope of the Agreement

           We questioned $4,187 in reported costs allocated to EPA assistance agreement
           X799368208 which represents costs incurred for services outside of the scope of
           the assistance agreement. The recipient awarded a contract valued at $101,757
           dated June 17, 2005. The statement of work was to prepare an educational film to
           show how it pursued the U.S. Green Building Council's Leadership in Energy &
           Environmental Design construction process. The project would entail hiring a
           filmmaker to produce an educational documentary focused on the recipient's
           headquarters and land parcel. This 4-year project would show how it balanced the
           competing needs of construction, education, research, and land stewardship.
           Specific information to be included in the documentary would include the
           recipient's mission, staff growth, building needs, land purchase, land management
           plan, building design process, conceptual design, road construction, innovative
           utilities, environmental restoration, and landscaping.

           According to the recipient's file, it was to allocate contract payments as follows:

           •	   Department of Commerce, National Oceanic and Atmospheric Administration
                Assistance Agreement NA86RP0593 = 40 percent;
           •	   Department of Commerce, National Oceanic and Atmospheric Administration
                Assistance Agreement NA04OAP00003 = 30 percent;
           •	   Environmental Protection Agency Assistance Agreement X79936208 = 30
                percent.

           The information in the recipient procurement file did not demonstrate that these
           expenditures should be allocated to the assistance agreement purpose. OMB
           Circular A-122, Attachment A, states that costs must be incurred specifically for
           the award or benefit the award. The purpose of the agreement was to focus
           resources to the following priorities: stream restoration, wastewater issues, land
           use, source water and flooding. An educational film on how the recipient
           implemented its philosophy of green construction is not specifically related to the
           assistance agreement nor does it benefit the assistance agreement. We questioned
           the $4,187 because the costs are not allocable to the assistance agreement.

           Recipient’s Response:

           The recipient disagreed that the questioned costs were not allocable to the
           assistance agreement. According to the recipient, the documentary content
           specifically related to the assistance agreement and that the funds expended for
           the documentary would benefit the assistance agreement. The questioned
           expenditures were to cover 30 percent of the cost of a project to develop an
           educational film documentary about the green building practices used in Canaan


                                            14 

                                                                                                 08-4-0156


            Valley Institute’s planned new Research and Education Complex. Among other
            things, the educational documentary would show how and why the recipient is
            using innovative wastewater treatment techniques that would prevent any
            untreated wastewater from directly entering stream systems. These techniques
            would have application across the recipient’s service area and be a major focus of
            its activities with wastewater treatment. Using these kinds of technologies would
            be critical to protecting source water in the Mid-Atlantic Highlands, as
            inadequately or inappropriately treated wastewater is a known contaminant of
            source water in the region.

            OIG Analysis:

            As discussed in the finding, the assistance agreement documentation, including
            the recipient’s work plan, does not discuss the funding of any type of
            environmental film. Specific projects are listed in the grant application and
            related budgeted amounts, but nowhere does the application mention making an
            educational film or any indicator that such material would be developed for
            training or education purposes. Neither the recipient nor EPA has provided any
            specific documentation showing EPA approval for the project. Neither the
            recipient nor EPA has provided any specifics about how this film will be used for
            future educational purposes, any rights that EPA may have for use of intellectual
            property under 40 CFR 30.36, as well as the potential impact of any program
            income that could result from the making of this film by the recipient. We
            continue to question costs of $4,187.

            Procurement – Improper Contract Administration

            We have questioned costs related to the H. Ronald Preston consulting contract
            because the recipient did not comply with the terms and conditions of the
            contract, did not have support for bonuses awarded to the contractor, and did not
            maintain cost or pricing data to support procuring the contractor. As a result, we
            questioned $56,857 in costs paid to Mr. Preston.

            The recipient reimbursed a consultant not in compliance with the terms and
            condition of the contract. During our audit period, the recipient entered into a
            contract and subsequent amendments contracts with H. Ronald Preston, a former
            employee, for a variety of consulting services. The recipient recorded and paid
            $56,857 to the consultant, as follows:

Table 3-5: Questioned Costs for H. Ron Preston Contract
                                                                                               Total
                                                                                              Amount
 Cost Element X79733901 X799368209 X83251701 X83274301 X799368208                             Reported
Compensation        $690    $21,337    $9,061    $9,480    $13,108                               $53,676
Expense                       1,168       601        82      1,330                                 3,181
  Total             $690    $22,505    $9,662    $9,562    $14,438                               $56,857
Sources: The contract costs were obtained from the recipient’s accounting records. The amounts questioned
were based upon OIG analysis.

                                                  15
                                                                          08-4-0156


During our review of the contract and related documentation, we found an overall
lack of proper contract administration. The terms and condition of the
consultant’s contract required him to invoice for services on a monthly basis.
However, the consultant did not invoice for services rendered as required. Our
review of contract files did not find any detailed invoices showing specific
services rendered and billing amounts. The recipient processed these contractor
payments through its payroll system, and recorded them in its financial
management system as contractor expenditures. With no supporting
documentation, we have no basis to determine if the contract services performed
were within the scope of his contract and the EPA assistance agreements, and if
the amounts billed and paid to the contract were reasonable.

The contract was amended to allow for a performance bonus to be paid.
However, the specific nature of how the bonus was to be calculated or what the
consultant must do to receive the bonus was not identified in the contract terms
and conditions. In concert with a lack of adequate invoicing to support services
rendered, we cannot make a determination if the costs associated with the bonus
were reasonable.

As part of our review of cost and pricing data for selected sole source
procurements, we determined that the H. Ron Preston contract did not have any
documentation to show that a cost or pricing analysis was performed. Therefore,
the contractor’s costs are also questioned due to lack of adequate cost or pricing
data.

Recipient’s Response:

The recipient stated that it has taken action to address the concern expressed about
the lack of signed invoices for the consultant’s services. The consultant’s current
contract requires an invoice every 4 weeks that is signed and approved before
payment for services rendered. To address the cost already incurred and
questioned, the recipient collected time records from the consultant that document
the time he worked on the contracts for the period covered by this audit. Canaan
Valley Institute also documented the tasks performed by the consultant while
under contract during the same period of time. The recipient’s Science and
Technology Director, the Research and Development team manager, and the
Aquatics Resource team manager were aware of the work being performed by the
consultant as he provided science consultation, guidance, recommendations,
project management, and oversight to the Science and Technology and the
Stakeholder Services teams. Canaan Valley Institute performed a cost analysis of
the consultant’s contract and stated that the time records, task documentation, and
cost analysis support the cost incurred and questioned as a valid expenditure for
the audited assistance agreements.

Although the consultant’s contract allowed for performance bonuses, it did not
specify the requirements to receive a bonus. However, bonuses were awarded


                                 16 

                                                                                     08-4-0156


         based on tasks performed by the consultant above and beyond his scope of work.
         In addition to tasks outlined in his scope of work, the consultant represented
         Canaan Valley Institute at several conferences, organized and coordinated two 2-
         day botanical bio-blitzes at the recipient location, and participated in many
         assessments and visits to project sites during the period covered by the audit.

         OIG Analysis:

         In responding to the draft report, the recipient stated that its current consultant’s
         contract provides for invoicing of services rendered every 4 weeks. During the
         audit, we noted that the terms of the consultant’s agreement required payment
         every 2 weeks, based on a fixed amount. The recipient did not provide a copy of
         the current contract so that we could evaluate the terms of the agreement,
         including invoicing requirements and examples of current invoices, to ensure that
         services and related costs meet the requirements of 40 CFR 30.40.

         In order to support claimed consultant costs that were questioned, the recipient
         provided a tabulation of hours worked and a separate description of the services
         rendered. Neither the consultant nor the recipient identified the services and
         hours worked to the biweekly amounts paid. Therefore, the documentation does
         not adequately support the costs claimed.

         The recipient stated that it paid out bonuses for tasks performed above and
         beyond the scope of work. Without a contract that specifically states the scope of
         work required by the consultant, we cannot assess whether the work actually
         performed by the consultant, resulting in bonuses, would be allowable for
         reimbursement. EPA cannot participate in funding services that are outside the
         scope of a consultant’s contract.

         Canaan Valley Institute provided a Cost and Price Analysis Worksheet for the
         agreements, stating that a cost analysis was performed after the fact. However, no
         documentation was provided to support its statements in the worksheet. We
         contacted the recipient requesting any additional documentation that it would
         have to support the analysis provided. The recipient did not have any further
         information. Accordingly, our audit position remains unchanged.

EPA Funds Used to Match Another Federally-Funded Cooperative
Agreement

         The recipient used $102,120 of EPA funds, under EPA assistance agreements
         X799368208 ($55,486) and X799368209 ($46,634), to meet its cost-matching
         requirement of another federally-funded cooperative agreement. The U.S.
         Department of Agriculture (USDA) entered into a cooperative agreement with the
         recipient under the Intergovernmental Personnel Act (IPA) for services of a civil
         engineer for a 2-year period starting in November 2003. In July 2004, USDA
         awarded a cooperative agreement to the recipient for the IPA position, to cover

                                          17 

                                                                          08-4-0156 



the services of the civil engineer’s position. Both the IPA form and the
cooperative agreement stated that the recipient was required to reimburse 51
percent of the employee’s salary and fringe benefits, while on the IPA. The
recipient was also responsible for all administrative and indirect costs associated
with this agreement, such as office space, supplies, etc. USDA paid all travel and
relocation expenses of the employee.

The OMB Circular A-122, Attachment A, Paragraph A.2f, states that for costs to
be allowable under an award, costs must not be included as costs or used to meet
cost-sharing requirements of any other federally-financed program in either the
current or a prior period. The recipient used expenses incurred under an EPA
assistance agreement to meet matching requirements under the USDA cooperative
agreement. Accordingly, we question the $102,120 used to meet the cost sharing
requirement.

Recipient’s Response:

The Natural Resources Conservation Service (NRCS), under the USDA, entered
into an IPA agreement with Canaan Valley Institute for services of an NRCS civil
engineer; the agreement was executed on December 22, 2003. Subsequently,
NRCS drafted a cooperative agreement for the purpose of detailing the
responsibilities of each party to the IPA agreement. The cooperative agreement
was executed on July 22, 2004. According to the recipient, NRCS made an error
by using a cooperative agreement for this purpose. Therefore, in December 2007,
NRCS drafted an amendment to the original agreement, in which NRCS stated
that the purpose of the amendment was to correct and clarify the intent and title of
the agreement, which was incorrectly termed “Cooperative Agreement,” and
signed and executed as such. The amendment further states that the IPA
agreement is the correct document for the civil engineer position, and the contents
of the cooperative agreement are for the purpose of detailing the responsibilities
of each party only. Additionally, the amendment attaches the actual IPA
agreement as the official agreement document.

Canaan Valley Institute’s obligation to pay USDA NRCS for the services of a
civil engineer has always come from the IPA agreement, which is the official
agreement document, and therefore, the recipient believes the related costs are
allowable.

OIG Analysis:

The recipient's execution of an amendment to the cooperative agreement does not
change the terms of the IPA. The agreement still requires the recipient to provide
for 51 percent of the funding of the services provided by the USDA employee.
We restate that OMB Circular A-122, Attachment A.2.f requires that for costs to
be allowable under an award, the costs must not be included as a cost or used to



                                 18 

                                                                                  08-4-0156


        meet cost sharing requirements of any other federally-financed program in either
        the current or a prior period. Accordingly, our audit position remains unchanged.

Recommendations

        We recommend that the EPA Director, Grants and Interagency Agreements
        Management Division, and/or the Regional Administrator, Region 3:

        3-1	   Require the recipient to revise its FY 2007 indirect cost rate proposal to
               comply with OMB Circular A-122 to:

                   •	 eliminate unnecessary adjustments resulting from converting
                      accrual basis amounts to the cash basis, and
                   •	 provide sufficient information regarding its direct allocation plan,
                      including the elements of each of the cost pools for directly
                      allocated costs, the elements of the allocation base, proposed dollar
                      amounts, and rate calculations.

        3-2	   Disallow indirect costs claimed of $1,696,493 and directly allocated costs
               of $1,086,116 until adequate indirect cost rate proposals are submitted and
               approved by the U.S. Department of Commerce, in accordance with OMB
               Circular A-122 and applicable EPA grant requirements

        3-3	   Ensure that the recipient complies with the assistance agreement
               conditions and does not request reimbursement for indirect or directly
               allocated costs until indirect costs rate are submitted and approved.

        3-4	   Require the recipient to submit revised Federal Cash Transaction Reports
               (SF 272s) or final Financial Status Reports (SF 269s) to reflect allowable
               indirect costs, based upon negotiated indirect cost rates.

        3-5	   Require the recipient to prepare its Policies and Procedures manual, with
               sufficient details, to ensure that goods and services are furnished in an
               effective manner and in compliance with the provisions of 40 CFR 30.40.

        3-6	   Require the recipient to offset reported outlays on assistance agreement
               X83274301 by surplus revenue (program income) totaling $17,266. The
               recipient should also identify any additional program income earned
               from July 1, 2007, through the end of the assistance agreement period,
               and credit this income to the assistance agreement.

        3-7	   Require the recipient to provide adequate cost or pricing data to support
               questioned contractual costs, totaling $272,888 and disallow and recover
               the federal share of any outlays which are not supported.



                                        19 

                                                                          08-4-0156 



3-8 	   Recover payments of $4,187 of outlays incurred outside of the scope of
        the grant agreement and not participate in any future costs associated with
        this project.

3-9 	   Require the recipient to provide adequate documentation to support the
        $56,587 in contractor payments to H. Ronald Preston, including detailed
        billings showing work performed and related charges, justification for
        awarding performance bonuses, adequate cost or pricing data to support
        contract award, and the current contract award showing modifications to
        contract language that comply with 40 CFR 30.40.

3-10 	 Disallow the $102,120 of EPA funds used to meet the cost sharing
       requirements of the USDA's cooperative agreement.




                                 20 

                                                                              08-4-0156 





                         Chapter 4
Results of Examination – Program Results

  While Canaan Valley Institute, Inc., provided all required deliverables and reports
  as required under its assistance agreements to EPA, it could improve monitoring
  of its subrecipient grant program. The recipient does not require subrecipients to
  submit final technical reports, and allows subrecipients to draw cash prior to
  actual need. As a result, the recipient does not have accurate information on the
  results of the subawards and may be drawing funds prior to need.

  As part of the recipient’s outreach efforts, it would provide subrecipient grants
  (generally not to exceed $5,000) to help to leverage resources for communities to
  fund water restoration and conservation projects. According to the recipient,
  since 1995, it has given out more than $1.3 million to over 350 subrecipients for
  educational, training and organizational assistance to watershed communities to
  support restoration and wastewater projects.

  Title 40 CFR Part 30.51(a) states that recipients are responsible for managing and
  monitoring each project, program, subaward, function or activity supported by the
  award. Title 40 CFR Part 30.21(b)(5) states that the recipient should have written
  procedures to minimize the time elapsing between the transfer of funds to the
  recipient from the U.S. Treasury and the issuance or redemption of checks,
  warrants, or payments by other means for program purposes by the recipient.
  EPA included, in each of its agreements, an administrative condition that imposes
  the same standards of timing and reporting cash activities on subrecipients.

  During our review of the project file for the McClure River Restoration Project
  (subrecipient), we noted that the project file did not evidence a final technical
  report on the project, although it did contain a final financial report. The recipient
  does not require its subrecipients to provide a final technical report. In Fiscal
  Year 2005, the recipient did change its subrecipient program to suggest that
  subrecipient submit such a report. However, it is not a requirement of the
  program to submit a final technical report. As a result, the recipient cannot be
  certain that the expected benefits from its subawards were actually achieved and
  could prevent the recipient from accurately reporting results to EPA.

  In reviewing the McClure River Restoration project file, we also found that the 6-
  month monitoring report stated funds awarded to the subrecipient have not been
  expended at the time of the review. According to the recipient's Stakeholder
  Services & Assessment Director, it is a common practice of subrecipients not to
  expend the funds upon receipt. The reason might be that the recipient’s funding
  was awarded with a condition that the subrecipient obtains other funds to


                                    21 

                                                                                    08-4-0156


        complete its projects. Another reason may be that the subrecipient is a small
        organization, and therefore needs time to accomplish the task. The recipient is
        not complying with the administrative conditions of the assistance agreements
        when it allows subrecipients to obtain funds prior to need.

        Recipient’s Response:

        Canaan Valley Institute recognized that it did not require sub-recipients to submit
        a final technical report as part of its sub-recipient grant program. The recipient
        agreed that this should be corrected and will require all future grantees to submit
        final technical reports along with their final financial reports. The recipient stated
        that this will help them to better evaluate the outcomes of its small grants program
        awards.

        Regarding sub-recipient funding, Canaan Valley Institute said that while sub-
        recipient awards generally do not exceed $5,000, it will address this concern by
        implementing a new procedure when releasing sub-recipient grant funds. Sub-
        recipients will be required to submit a request in writing to Canaan Valley
        Institute when they begin incurring costs. This step will correct the timing of cash
        activities with respect to sub-recipients.

        OIG Analysis:

        The recipient concurred with our recommendations. The recipient should provide
        documentation to EPA demonstrating the implementation of the
        recommendations.

Recommendations

        We recommend that the EPA Director, Grants and Interagency Agreements
        Management Division, direct the recipient to:

        4-1 	 Revise its subrecipient monitoring program to require technical reports from
              its subrecipients.

        4-2 	 Comply with the administrative conditions of the agreements to impose the
              same standards of timing of cash activities on its subrecipients.




                                          22 

                                                                                     08-4-0156 





             Schedules of Reported Outlays and
                  Results of Examination

                            Schedule 1 

          Reported Outlays and Results of Examination for 

                Assistance Agreement X799368208 


                                                         Questioned
                    Description             Amount        Outlays            Note
           Personnel                       $ 576,541
           Fringe Benefits                    169,009       $167,132           1
           Travel                             101,491          29,952          1
           Equipment                           53,659
           Supplies                            17,431                          1
           Contractual                        217,135          93,497          2
           All Other                          474,111          55,498          1
           Indirect Costs                     480,018         480,018          1
           Less: Program Income               101,195
           Total                           $1,988,200       $826,097
            Less: Questioned costs            826,097
           Adjusted Total Outlays          $1,162,103
           EPA Payments                     1,988,200
           Due EPA                         $ 826,097
           Sources: The total reported outlays and amounts claimed were from the
           recipient’s FCTRs. The amounts questioned were based upon OIG analysis.

Note 1: 	 See discussion on unallowable indirect costs in Chapter 3 - Results of
          Examination.




                                               23 

                                                                                       08-4-0156


Note 2: Contractual costs claimed and questioned are detailed below.

                                                     Questioned
                 Description            Amount        Outlays          Note
              Direct Cost Allocation      $ 13,177       $13,177        a
              Cost/Pricing Data –
                                             6,209         6,209        b
              James Kreissl
              H. Ron Preston                14,438        14,438        c
              IPA                           55,486        55,486        d
              Motion Masters                 4,187         4,187        e
              Other Contractual            123,638             0
          Total Contractual              $217,135        $93,497



         a. 	 See discussion of unallowable indirect costs in Chapter 3 - Results of
              Examination.
         b. 	 See discussion on cost and pricing data in Chapter 3 - Results of
              Examination.
         c. 	 See discussion on procurement of the H. Ronald Preston contract in Chapter 3 -
              Results of Examination.
         d. 	 See discussion on procurement – funds being used to match another federally-
              funded cooperative agreement in Chapter 3 - Results of Examination.
         e. 	 See discussion on procurement – funds being used outside scope of agreement
              in Chapter 3 – Results of Examination.




                                           24 

                                                                                       08-4-0156



                            Schedule 2 

          Reported Outlays and Results of Examination for 

                 Assistance Agreement X83274301 


                                                            Questioned
                     Description                Amount       Outlays          Note
         Personnel                          $ 391,465
         Fringe Benefits                         151,496       $138,617            1
         Travel                                   40,664         14,706            1
         Equipment                               249,797
         Supplies                                140,803          5,269            1
         Contractual                             177,118        177,118            2
         All Other                               236,175         48,654            1
         Indirect Costs                          366,322        366,322            1
         Less: Program Income                     84,951                           3
         Total                              $1,668,889         $750,686
         Less:
           Questioned costs                      750,686
           Unreported Program Income              17,266                           4
         Adjusted Total Outlays             $ 900,937
         EPA Payments                        1,684,000
         Due EPA                            $ 783,063
           Sources: The total reported outlays and amounts claimed were from the
           recipient’s FCTRs. The amounts questioned were based upon OIG analysis.


Note 1: See discussion of unallowable indirect costs in Chapter 3 - Results of
         Examination.

Note 2: Contractual costs claimed and questioned are detailed below.

                                                           Questioned
                     Description           Amount           Outlays          Note
                 Direct Cost Allocation     $     7,188      $ 7,188          a
                 Cost/Pricing Data –
                                                160,368       160,368         b
                 AC Express, Inc.
                 H. Ron Preston                   9,562         9,562          c
          Total Contractual                 $177,118         $177,118

         a. 	 See discussion of unallowable indirect costs in Chapter 3 - Results of
              Examination.


                                                 25
                                                                                  08-4-0156 



         b. 	 See discussion on cost and pricing data in Chapter 3 - Results of
              Examination.
         c. 	 See discussion on procurement of the H. Ronald Preston contract in Chapter 3 -
              Results of Examination.

Note 3: 	Program income of $84,951 consists of fee-for-service amounts of $78,238 and
         conference and registration fees of $6,713.

Note 4: 	See discussion of program income in Chapter 3 - Results of Examination.




                                           26 

                                                                                       08-4-0156



                            Schedule 3 

          Reported Outlays and Results of Examination for 

                 Assistance Agreement X83251701 


                                                          Questioned
                   Description              Amount         Outlays           Note
          Personnel                          $391,154
          Fringe Benefits                     136,416       $118,495           1
          Travel                               37,318          11,965          1
          Equipment                              6,895
          Supplies                             42,597           1,931          1
          Contractual                          72,191          18,109          2
          All Other                            71,102          42,454          1
          Indirect Costs                      244,168         244,168          1
           Less: Program Income                  8,824
          Total                              $993,017       $437,122
            Less: Questioned costs            437,122
          Adjusted Total Outlays             $555,895
          EPA Payments                        992,000
          Due EPA                            $436,105
           Sources: The total reported outlays and amounts claimed were from the
           recipient’s FCTRs. The amounts questioned were based upon OIG analysis.

Note 1: See discussion of unallowable indirect costs in Chapter 3 - Results of
         Examination.

Note 2: Contractual costs claimed and questioned are detailed below.

                                                          Questioned
                   Description              Amount         Outlays           Note
               Direct Cost Allocation          $ 5,853        $ 5,853          a
               Cost/Pricing Data –
                                                    354           354          b
               AC Express, Inc.
               Cost/Pricing Data –
                                                 2,240          2,240          b
               James Kreissl
               H. Ron Preston                    9,662          9,662          c
               Other Contractual               54,082
          Total Contractual                   $72,191         $18,109

         a. 	 See discussion of unallowable indirect costs in Chapter 3 - Results of
              Examination.

                                               27
                                                                         08-4-0156 



b. 	 See discussion on cost and pricing data in Chapter 3 - Results of
     Examination.
c. 	 See discussion on procurement of the H. Ronald Preston contract in Chapter 3 -
     Results of Examination.




                                 28 

                                                                                      08-4-0156



                              Schedule 4 

            Reported Outlays and Results of Examination for 

                  Assistance Agreement X799368209 


                                                          Questioned
                     Description             Amount        Outlays            Note
            Personnel                       $ 860,427
            Fringe Benefits                    281,139     $ 263,856            1
            Travel                              98,430          33,411          1
            Equipment                             6,519
            Supplies                            53,582           6,689          1
            Contractual                        356,006         187,983          2
            All Other                          178,065         103,017          1
            Indirect Costs                     592,767         592,767          1
            Less: Program Income               442,935
            Totals                          $1,984,000      $1,187,723
             Less: Questioned costs          1,187,723
            Adjusted Total Outlays          $ 796,277
            EPA Payments                     1,984,000
            Due EPA                         $1,187,723
            Sources: The total reported outlays and amounts claimed were from the
            recipient’s FCTRs. The amounts questioned were based upon OIG analysis.

Note 1: 	   See discussion of unallowable indirect costs in Chapter 3 - Results of
            Examination.




                                                29 

                                                                                       08-4-0156


Note 2: Contractual costs claimed and questioned are detailed below.

                                                     Questioned
                 Description            Amount        Outlays          Note
              Direct Cost Allocation     $ 15,127       $ 15,127        a
              Cost/Pricing Data –
                                               177           177        b
              AC Express
              Cost/Pricing Data –
                                           103,540       103,540        b
              Wildland Hydrology
              H. Ron Preston                22,505        22,505        c
              IPA                           46,634        46,634        d
              Other Contractual            168,023
          Total Contractual              $356,006       $187,983

         a. 	 See discussion of unallowable indirect costs in Chapter 3 - Results of
              Examination.
         b. 	 See discussion on cost and pricing data in Chapter 3 - Results of
              Examination.
         c. 	 See discussion on procurement of the H. Ronald Preston contract in Chapter 3 -
              Results of Examination.
         d. 	 See discussion on procurement – funds being used to match another federally-
              funded cooperative agreement in Chapter 3 - Results of Examination.




                                           30 

                                                                                     08-4-0156




                            Schedule 5 

          Reported Outlays and Results of Examination for 

                Assistance Agreement X797339001 


                                                         Questioned
                   Description              Amount        Outlays            Note
           Personnel                          $27,398
           Fringe Benefits                       2,816        $ 2,816          1
           Supplies                              4,550
           Contractual                             961            961          2
           All Other                             3,375              38         1
           Indirect Costs                      13,218          13,218          1
           Total                              $52,318         $17,033
            Less: Questioned costs             17,033
           Adjusted Total Outlays             $35,285
           EPA Payments                        50,000
           Due EPA                            $14,715
           Sources: The total reported outlays and amounts claimed were from the
           recipient’s FCTRs. The amounts questioned were based upon OIG analysis.

Note 1: 	 See discussion of unallowable indirect costs in Chapter 3 - Results of
          Examination.

Note 2: Contractual costs claimed and questioned are detailed below.

                                                         Questioned
                   Description              Amount        Outlays            Note
               Direct Cost Allocation            $271            $271          a
               H. Ron Preston                      690            690          b
           Total Contractual                     $961            $961

         a. See discussion of unallowable indirect costs in Chapter 3 - Results of
            Examination.
         b. See discussion on procurement of the H. Ronald Preston contract in Chapter 3 -
            Results of Examination.




                                               31 

                                                                                                                                  08-4-0156




                           Status of Recommendations and
                              Potential Monetary Benefit
                                                                                                                        POTENTIAL MONETARY
                                              RECOMMENDATIONS                                                            BENEFITS (in $000s)

                                                                                                            Planned
Rec.   Page                                                                                                Completion   Claimed    Agreed To
No.     No.                         Subject                           Status1       Action Official           Date      Amount      Amount

3-1     19    Require the recipient to revise its FY 2007 indirect      O         Director, Grants and
              cost rate proposal to comply with OMB Circular A-                 Interagency Agreements
              122 to eliminate unnecessary adjustments resulting                  Management Division
              from converting accrual basis amounts to the cash
              basis, and provide sufficient information regarding
              its direct allocation plan, including the elements of
              each of the cost pools for directly allocated costs,
              the elements of the allocation base, proposed
              dollar amounts, and rate calculations.

3-2     19    Disallow indirect costs claimed of $1,696,493 and         U         Director, Grants and                   $2,783
              directly allocated costs of $1,086,116 until indirect             Interagency Agreements
              cost rate proposals are submitted and approved by                  Management Division,
              the U.S. Department of Commerce, in accordance                               and
              with OMC Circular A-122 and applicable EPA grant                   Regional Administrator,
              requirements.                                                             Region 3

3-3     19    Ensure that the recipient complies with the               U         Director, Grants and
              assistance agreement conditions and does not                      Interagency Agreements
              request reimbursement for indirect or directly                     Management Division,
              allocated costs until indirect costs rate are                                and
              submitted and approved.                                            Regional Administrator,
                                                                                        Region 3

3-4     19    Require the recipient to submit revised Federal           U         Director, Grants and
              Cash Transaction Reports (SF 272s) or final                       Interagency Agreements
              Financial Status Reports (SF 269s) to reflect                      Management Division,
              allowable indirect costs, based upon negotiated                              and
              indirect cost rates.                                               Regional Administrator,
                                                                                        Region 3

3-5     19    Require the recipient to prepare its Policies and         C         Director, Grants and      03/26/08
              Procedures manual, with sufficient details, to                    Interagency Agreements
              ensure that goods and services are furnished in an                  Management Division
              effective manner and in compliance with the
              provisions of 40 CFR 30.40.

3-6     19    Require the recipient to offset reported outlays          U         Director, Grants and                    $17
              on assistance agreement X83274301 by surplus                      Interagency Agreements
              revenue (program income) totaling $17,266.                          Management Division
              The recipient should also identify any additional
              program income earned from July 1, 2007,
              through the end of the assistance agreement
              period, and credit this income to the assistance
              agreement.

3-7     19    Require the recipient to provide adequate cost or         U         Director, Grants and                    $272
              pricing data to support questioned contractual                    Interagency Agreements
              costs, totaling $272,888 and disallow and recover                  Management Division,
              the federal share of any outlays which are not                               and
              supported.                                                         Regional Administrator,
                                                                                        Region 3




                                                                            32 

                                                                                                                                        08-4-0156


                                                                                                                              POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                            BENEFITS (in $000s)

                                                                                                                  Planned
    Rec.    Page                                                                                                 Completion   Claimed    Agreed To
    No.      No.                          Subject                         Status1          Action Official          Date      Amount      Amount

    3-8       20    Recover payments of $4,187 of outlays incurred          U          Regional Administrator,                   $4
                    outside of the scope of the grant agreement and                          Region 3
                    not participate in any future costs associated with
                    this project.

    3-9      20     Require the recipient to provide adequate               U         Director, Grants and                      $57
                    documentation to support the $56,587 in contractor              Interagency Agreements
                    payments to H. Ronald Preston, including detailed                Management Division,
                    billings showing work performed and related                                and
                    charges, justification for awarding performance                  Regional Administrator,
                    bonuses, adequate cost or pricing data to support                       Region 3
                    contract award, the current contract award
                    showing modifications to contract language that
                    comply with 40 CFR 30.40.

    3-10     20     Disallow the $102,120 of EPA funds used to meet         U          Regional Administrator,
                    the cost sharing requirements of the USDA's                              Region 3
                    cooperative agreement.

    4-1      22     Direct the recipient to revise its subrecipient         O         Director, Grants and
                    monitoring program to require technical reports                 Interagency Agreements
                    from its subrecipients.                                           Management Division

    4-2      22     Direct the recipient to comply with the                 O         Director, Grants and
                    administrative conditions of the agreements to                  Interagency Agreements
                    impose the same standards of timing of cash                       Management Division
                    activities on its subrecipient.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                33 

                                                                                        08-4-0156


                                                                                    Appendix A

                           Scope and Methodology

We performed our examination in accordance with the Government Auditing Standards, issued
by the Comptroller General of the United States, and the attestation standards established by the
American Institute of Certified Public Accountants. We also followed the guidelines and
procedures established in the Office of Inspector General Project Management Handbook.

We conducted this examination to express an opinion on the reported outlays, and determine
whether the recipient complied with all applicable laws and regulations, as well as with any
special requirements under the agreement. We conducted our fieldwork from September 10,
2007, through December 12, 2007.

In conducting our examination, we performed procedures as detailed below:

   •	 We interviewed EPA personnel and reviewed grants and project files to obtain 

      background information on the recipient and the agreements. 


   •	 We interviewed recipient personnel to understand the accounting system and the 

      applicable internal controls as they relate to the reported outlays. 


   •	 We reviewed the Fiscal Year 2004 and 2005 single audit reports, to identify issues that
      might impact our examination.

   •	 We reviewed the recipient’s internal controls specifically related to our objectives.

   •	 We performed tests of the internal controls to determine whether they were in place and
      operating effectively.

   •	 We examined the reported outlays on a test basis to determine whether the outlays were
      adequately supported and eligible for reimbursement under the terms and conditions of
      the agreements and Federal regulations and cost principles.

   •	 We verified that the recipient performed all tasks and provided all deliverables required
      under the agreements.

The Office of Inspector General has not audited the recipient before. Follow-up of prior findings
was, therefore, not necessary.




                                                34 

                                                                                         08-4-0156


                                                                                   Appendix B

                              Recipient’s Response




March 26, 2008


Leah Nikaidoh
U. S. EPA Office of the Inspector General
26 W. Martin Luther King Drive
MS: Norwood
Cincinnati, OH 45268

RE: Draft Attestation Report – Incurred Cost Audit of Five EPA Cooperative Agreements

Attached please find Canaan Valley Institute’s organization response to the Draft Attestation
report. Our response includes several attachments and they are being sent electronically. Due to
the sensitive nature of the information contained in the attachments, we request that all
attachments be treated as confidential information and not be publicly released.

It is our hope that this response addresses all the questioned issues.

If we can be of further assistance, please contact me or Mike Speranzella, Finance and
Operations Director at 304-463-4739.


Sincerely,



Kiena L. Smith /s/
Executive Director


Enclosure




                                                 35 

                                                                                     08-4-0156 





 Organization Response to the U.S. Environmental Protection Agency

  Office of Inspector General Draft Attestation Report: Canaan Valley

      Institute, Inc., Incurred Cost Audit of Five EPA Cooperative 

                                Agreements 


                              Submitted March 26, 2008 


Indirect Costs
The Environmental Protection Agency Office of Inspector General (EPA OIG) questioned
$1,696,493 of indirect cost claimed by Canaan Valley Institute (CVI) for the period covered
by the audit, October 1, 2004 through June 30, 2007. As noted in the report, the last
approved indirect cost rate was based on FY2003 audited financial reports and was
31.92%. The indirect cost rates used by CVI during the audit period, based on actual
expenses incurred, were 30.91%, 31.51%, and 31.55% for FY2005, FY2006, and FY2007
respectively. As also noted in the report, CVI has received a letter from our cognizant
agency, the U.S. Department of Commerce, directing us on how to proceed to obtain a new,
approved indirect cost rate (see Attachment A). Per this letter, CVI has submitted an indirect
cost proposal based on audited FY2007 expenditures to the U.S. Department of Commerce
(see Attachment B).

The EPA OIG also questioned $1,086,116 of direct cost claimed by CVI which was
allocated to funding sources through the direct allocation method. It was noted in the report
that this direct allocation of costs was not disclosed in the FY2003 indirect cost proposal,
and this is correct. CVI has addressed this and an explanation of the direct cost allocation of
expenses used by CVI is included as part of the attached FY2007 indirect cost proposal.
The basis for some of the direct cost allocations, in particular professional fees for
accounting and legal and telephone expense, were questioned with respect to the benefit
received compared to the allocation. CVI has addressed this and starting with FY2008 now
allocates professional fees for accounting and legal and telephone expense based on salary
expense for all funding sources.




                                              36 

                                                                                    08-4-0156 





Program Income

The EPA OIG questioned the amount of program income credited to the Office of
Environmental Information (OEI) and says an additional $12,266 should be credited to the
OEI agreement for the period ended June 30, 2007. CVI must respectfully take exception to
the OIG position that additional program income must be credited for the period ended June
30, 2007.

 CVI performs Fee-for-Service (FFS) work for non-Federal clients using the Light Detection
and Ranging (LiDAR) equipment and aircraft purchased with funds awarded by OEI to CVI.
The purchased equipment is also used to meet the deliverable requirements for several of
CVI’s Federal awards as well. For the audit period ended June 30, 2007 CVI recorded a
FFS net profit of $95,504, and credited $82,813(*) back to the OEI agreements as FFS
program income, as noted in the report. The EPA OIG says that all of the FFS net profit
should be credited back to the OEI agreement but CVI does not agree. All expenses
incurred by CVI while performing on FFS contracts are recorded in the CVI accounting
system against the FFS general ledger accounts and at no time during FFS activities are
any expenses recorded against Federal awards nor are any Federal funds used to support
the activities. CVI does agree that when expenses for an activity are charged to a Federal
award then all income associated with that activity should be credited back to that award, as
CVI does for workshops and conferences; however, as stated earlier, that is not the case for
FFS activities. CVI does meet the requirements of 40 CFR 30.34(b) in that when we used
equipment acquired with Federal funds to provide services to non-Federal outside
organizations(as is the case for FFS) we have to charge them a fee comparable to those
charged by private companies for the same service, which we did. CVI also followed 40
CFR 30.34 (d) that states that a fair market use fee must be charged when equipment
owned by the Federal government is used for a non-Federal purpose and those fees
returned as program income to the appropriate Federal award. While the LiDAR equipment
and airplane are not owned by the Federal government (per 40 CFR 30.34 (a)) CVI did
charge our FFS clients a fair market use fee for the equipment and credited those fees back
to the OEI awards as part of the $82,813 of program income. CVI therefore believes we
have met the 40 CFR requirements for the use of equipment acquired with Federal funds
and does not owe additional program income for the period ended June 30, 2007.

The report noted that additional program income earned through the end of the OEI
assistance agreement should be credited to the agreement. An additional $43,048 of
program income has been credited to the OEI agreement through the end of the agreement
on August 31, 2007. A total of $125,861 from FFS program income has been credited to the
OEI agreements from October 1, 2004 through August 31, 2007.

(*) The report states that $83,238 was credited back to the assistance agreements from
FFS contracts but that figure should actually be $82,813.

Procurement – Contract Management

The EPA OIG sited the need for CVI’s policies and procedures manual to be strengthened,
especially in the areas of contract administration and contract provisions. The CVI policies

                                             37 

                                                                                    08-4-0156 



and procedures manual and contract documents have been modified to include details
necessary to ensure that goods and services are obtained in an effective manner and in
compliance with the provisions of 40 CFR 30.40 through 30.48 (see Attachments C and D,
revised Project Procedures and Contracts Procedures sections of the CVI Policies and
Procedures Manual, and contract template).

Procurement – Cost and Pricing Analysis

The EPA OIG questioned contract costs of $272,888 sighting the lack of a cost or price
analysis for the contracts. All of the questioned contracts were sole source procurements
therefore Cost Analysis Worksheets have been completed for each of the questioned
contracts: A.C. Express, Inc. contracts CVI 2005-36 and 2006-22, three Wildland Hydrology
2006 contracts, and James Kreissl CVI 2004-10 and 2005-03 contracts. (See Attachments
E - M.)

Procurement – Services Outside the Scope of the Agreement
The EPA OIG has questioned the expenditure of $4,187 from agreement X799368208 to
cover 30% of the cost of a project to develop an educational film documentary about the
green building practices used in CVI’s planned new Research and Education Complex. The
idea behind “green building” is to minimize the negative environmental impacts from
construction, long-term energy consumption and maintenance of the building infrastructure.
Some green practices have direct implications for four of CVI’s listed agreement priority
areas-- wastewater issues, land use, source water and flooding. The educational
documentary will show how and why CVI is using innovative wastewater treatment
techniques that will prevent any treated wastewater from directly entering stream systems.
This ensures that wastewater will be additionally treated by percolation through soils,
prevents warm treated water from entering coldwater streams, and provides additional
protection for streams. These techniques have application across CVI’s service area and
are a major focus of CVI’s activities with wastewater treatment. The use of these kinds of
technologies are also critical to protecting source water in the Mid-Atlantic Highlands, as
inadequately or inappropriately treated wastewater is a known contaminant of source water
in the region. The siting of CVI’s building—using a previously disturbed site and protecting
as much existing habitat as possible during construction, is a direct demonstration of the
kinds of land use practices CVI has been encouraging through its work on the relevant
agreement. Finally the use of innovative storm water management techniques in and
around CVI’s building, access road and parking lot are also critical practices for mitigation
flooding impacts in developed areas of the region.

All of these techniques are being highlighted in the educational documentary and are the
main impetus of the educational filming project. CVI therefore respectfully disagrees with
the EPA OIG and believes that the questioned costs are allocable to assistance agreement
X799368208, that the documentary content is specifically related to the assistance
agreement and that the funds expended for the documentary benefit the assistance
agreement.




                                             38 

                                                                                    08-4-0156 




Procurement – Improper Contract Administration
The EPA OIG has questioned $56,857 of cost paid to a consultant contractor, H. Ronald
Preston. CVI has taken action to address the concern expressed about the lack of signed
invoices for Mr. Preston’s services. Mr. Preston’s current contract requires an invoice every
four weeks that is signed and approved before payment for services rendered. To address
the cost already incurred and questioned, CVI has collected time records from Mr. Preston
that document the time he worked on the CVI contracts for the period covered by this EPA
OIG audit (see Attachment N). CVI has also documented the tasks performed by Mr.
Preston while under contract to CVI during the same period of time (see Attachment O).
Supporting documentation, including meeting notes of attendance, rosters, copies of final
reports and emails have been collected noting Mr. Preston’s participation in specific
activities and projects. The Science and Technology Director, the Research and
Development team manager and the Aquatics Resource team manager were aware of the
work being performed by Mr. Preston as he provided science consultation, guidance,
recommendations, project management and oversight to the Science and Technology and
the Stakeholder Services teams. CVI has performed a cost analysis of Mr. Preston’s
contract (see Attachments P-Q) and believes that the time records, task documentation and
cost analysis support the $56,857 cost incurred and questioned as a valid expenditure for
the audited assistance agreements.

Although Mr. Preston’s contract allowed for performance bonuses but did not specify the
requirements to receive a bonus, bonuses were awarded based on tasks performed by Mr.
Preston above and beyond his scope of work. In addition to tasks outlined in his scope of
work, Mr. Preston represented CVI at several conferences, organized and coordinated two
two-day botanical bio-blitzes on CVI property, and participated in many assessments and
visits to project sites during the period covered by the EPA OIG audit.

CVI respectfully asks that the sentence “The recipient processed these contractor payments
as employee compensation in its payroll system, effectively treating these contractor
payments as salary” be changed to state that the payments made to Mr. Preston through
the payroll system were recorded in the payroll reports as “1099” payments, not as CVI
employee salary, and were recorded in the CVI accounting system as contract
expenditures.


EPA Funds Used to Match Another Federally-Funded Cooperative
Agreement
The EPA OIG questioned $102,120 of cost related to an Intergovernmental Personnel Act
(IPA) agreement between the U.S. Department of Agriculture (USDA) and CVI.

The Natural Resources Conservation Service (NRCS), under the USDA, entered into an
IPA agreement with CVI for services of an NRCS civil engineer; the agreement was
executed on December 22, 2003. Subsequently, NRCS drafted a cooperative agreement for
the purpose of detailing the responsibilities of each party to the IPA agreement. The
cooperative agreement was executed on July 22, 2004. NRCS made an error by using a
cooperative agreement for this purpose, therefore, in December 2007, NRCS drafted an

                                             39 

                                                                                     08-4-0156 



amendment to the original agreement (Amendment 3), in which NRCS stated that the
purpose of the amendment was to correct and clarify the intent and title of the agreement,
which was incorrectly termed “Cooperative Agreement”, and signed and executed as such.
The amendment further states that the IPA agreement is the correct document for the civil
engineer position, and the contents of the cooperative agreement are for the purpose of
detailing the responsibilities of each party only. Additionally the amendment attaches the
actual IPA agreement as the official agreement document. Amendment 3 was fully
executed on December 21, 2007. (See Attachment R)

CVI’s obligation to pay USDA NRCS for the services of a civil engineer has always come
from the IPA agreement, which is the official agreement document, and therefore, we
believe an allowable cost for the EPA agreement sited in the report.

Program Results
The EPA OIG noted that CVI did not require sub-recipients to submit a final technical report
as part of its sub-recipient grant program. CVI agrees that this should be corrected and will
require all future grantees to submit final technical reports along with their final financial
reports. This will help CVI better evaluate the outcomes of its small grants program awards.

The EPA OIG also noted that CVI was awarding funds to sub-recipients prior to their actual
need for the funds. While sub-recipient awards generally do not exceed $5,000, CVI will
address this concern by implementing a new procedure when releasing sub-recipient grant
funds. Sub-recipients will be required to submit a request in writing to CVI when they begin
incurring costs. This step will correct the timing of cash activities with respect to sub-
recipients.




                                              40 

                                                                             08-4-0156 



                                   Attachments

The recipient has requested that the attachments be treated as business confidential
                      information and not be publicly released




                                        41 

                                                                               08-4-0156


                                                                            Appendix C

                                    Distribution

Office of the Administrator
Region 3 Administrator
Director, Grants and Interagency Agreements Management Division
Director, Office of Grants and Debarment
Assistant Administrator for Environmental Information
Assistant Administrator for Research and Development
Assistant Administrator for Enforcement and Compliance Assurance
Associate Administrator for Policy, Economics, and Innovation
Agency Follow-up Official (the CFO)
Agency Audit Follow-up Coordinator
Audit Follow-up Coordinator, Office of Grants and Debarment
Audit Follow-up Coordinator, Region 3
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Acting General Counsel
Deputy Inspector General




                                             42 

